                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




       AGREED-UPON PROCEDURES REVIEW OF
         CORPORATION FOR NATIONAL AND
              COMMUNITY SERVICE
          EDUCATION AWARD GRANTS TO
        BOYS AND GIRLS CLUBS OF AMERICA
                      OIG REPORT 08-12




                         Prepared by
                    Regis & Associates, PC
                    1400 Eye Street, N.W.
                    Washington, DC 20005




This report was issued to Corporation management on August 6, 2008. Under the
laws and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later than
February 6, 2009, and complete its corrective actions by August 6, 2009.
Consequently, the reported findings do not necessarily represent the final resolution
of the issues presented.
                         OFFICE OF INSPECTOR GENERAL
                                        August 6, 2008


TO:            Kristin McSwain
               Director, AmeriCorps*State and National

               Margaret Rosenberry
               Director, Office of Grants Management


FROM:          Carol Bates /s/
               Assistant Inspector General for Audit

SUBJECT:       OIG Report 08-12, Agreed-Upon Procedures Review of Corporation for
               National and Community Service Education Award Program Grants to Boys
               and Girls Clubs of America


We contracted with the independent certified public accounting firm of Regis & Associates,
PC, (Regis) to perform agreed-upon procedures in its review of Corporation grants awarded
to Boys and Girls Clubs of America (BGCA). The contract required Regis to conduct its
review in accordance with generally accepted government auditing standards.

Regis is responsible for the attached report, dated February 29, 2008, and the conclusions
expressed therein. We do not express opinions on BGCA’s Schedule of Questioned
Education Awards, Accrued Interest Award and Administrative Fees; conclusions on the
effectiveness of internal controls; or compliance with laws, regulations, and grant provisions.

Under the Corporation’s audit resolution policy, a final management decision on the findings
in this report is due by February 6, 2009. Notice of final action is due by August 6, 2009.

If you have questions pertaining to this report, please call me at 202-606-9356.

Attachment

cc:   Roxanne Spillett, President, Boys and Girls Clubs of America
      William Anderson, Deputy Chief Financial Officer, Financial Management
      Rocco Gaudio, Deputy Chief Financial Officer, Grants and Field Financial Management
      Sherry Blue, Audit Resolution Coordinator
      Lateef Abassi, CPA, Regis & Associates, PC



                   1201 New York Avenue, NW Suite 830, Washington, DC 20525
                     202-606-9390 Hotline: 800-452-8210 www.cncsoig.gov

                       Senior Corps   AmeriCorps   Learn and Serve America
                       OFFICE OF INSPECTOR GENERAL
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE

                    AGREED-UPON PROCEDURES REVIEW OF
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                   EDUCATION AWARD PROGRAM GRANTS TO
                     BOYS AND GIRLS CLUBS OF AMERICA



                                                        Table of Contents



                                                                                                                                      Page

Executive Summary .................................................................................................................. 1

   Agreed-Upon Procedures Scope ........................................................................................... 1

   Background ........................................................................................................................... 2

Independent Accountants’ Report On Applying Agreed-Upon Procedures............................. 4

   Results................................................................................................................................... 5

       Exhibit A: Schedule of Questioned Education Awards, Accrued Interest Award and
       Administrative Fees ......................................................................................................... 6

       Compliance Testing Results..............................................................................................7

Appendix A – Boys and Girls Clubs of America’s Response to the Draft Report

Appendix B – Corporation for National and Community Service’s Response
             to the Draft Report
                                 EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Regis & Associates, PC to perform agreed-upon procedures
on Boys and Girls Clubs of America (BGCA) to assist the OIG in compliance testing of
member files for compliance with the provisions of the Education Award Program (EAP)
grants for Program Years (PY) 2004-2005, 2005-2006 and 2006-2007. As a result of
applying these procedures, we have questioned amounts totaling $250,559, consisting of
education awards of $228,073, an accrued interest award (interest forbearance) of $133, and
administrative fees of $22,353.

The detailed results of our agreed-upon procedures (AUP) and questioned amounts are
presented in the Independent Accountant’s Report on Applying Agreed-Upon Procedures,
Exhibit A, Schedule of Questioned Education Awards, Accrued Interest Award and
Administrative Fees. A questioned amount is an alleged violation of a provision of law,
regulation, contract, grant, cooperative agreement, or other agreement or document
governing the expenditure of funds; or a finding that, at the time of testing, such amount is
not supported by adequate documentation.

Questioned Amount. As a result of testing a judgmental sample of transactions, we
questioned awards, as shown below:

                                                                      Questioned Amounts
                                                                 Education Accrued     Admin
        Program              Number          AUP Period           Award      Interest    Fees
Education Award Program   03EDHGA001     05/01/05 - 12/31/06   $ 213,898 $ 133 $ 21,082
Education Award Program   06EDHGA001     01/01/07 - 12/31/07   $    14,175            $ 1,271
          Total                                                $   228,073 $     133 $ 22,353

Compliance Testing Results. The detailed results of our agreed-upon procedures revealed
instances of non-compliance with grant provisions, regulations, or Office of Management
and Budget (OMB) Circulars. Those instances of non-compliance are shown in Exhibit B in
the Compliance Testing Results section of the Independent Accountant’s Report on Applying
Agreed-Upon Procedures.

Exit Conference. The contents of this report were discussed with the Corporation and
BGCA at an exit conference held in Atlanta, GA, on May 14, 2008. In addition, on June 18,
the OIG provided a draft of the report to BGCA and to the Corporation for comment.
BGCA’s responses to the findings and recommendations are included in Appendix A and
summarized in each finding. The Corporation’s response, addressing Finding 1 only, is in
Appendix B.

Agreed-Upon Procedures Scope

These agreed-upon procedures had the objectives of determining whether members enrolled
in the program are eligible, are performing service in accordance with grant terms and

                                              1
conditions and, if certified for an education award, have performed the minimum service
hours required for the following grants:


                                   Award                                       AUP or
          Program                 Number             Award Period          Testing Period
Education Awards Program       03EDHGA001        02/01/04 - 01/31/07     01/01/05 - 01/31/07
Education Awards Program       06EDHGA001        01/01/07 - 12/31/09     01/01/07 - 12/31/07


We also performed tests to determine compliance with grant terms and provisions. We
performed our procedures during the period January 7, 2008, through February 29, 2008.

The OIG’s agreed-upon procedures, dated September 2007, provided guidance for
understanding the BGCA and testing compliance with provisions of the Education Award
Program grant. We used IDEA sampling programming software for selecting the sample for
our testing. These procedures are described in more detail in the Independent Accountants’
Report on Applying Agreed-Upon Procedures.


Background

The Corporation supports national and community service programs that provide full- and
part-time opportunities for Americans to engage in service that fosters civic responsibility,
strengthens communities, and provides educational opportunities for those who make a
commitment to service. The AmeriCorps program is one of the Corporation’s three major
service initiatives. Approximately three-quarters of all AmeriCorps grant funding goes to
governor-appointed State service commissions, which award competitive grants to nonprofit
groups that then recruit AmeriCorps members to respond to local needs. The Corporation
distributes most of the balance of its funding directly to multi-State and national
organizations such as BGCA through a competitive grant process.

AmeriCorps Education Award Program (EAP) grants are fixed-amount awards. In
determining the amount of these awards, the Corporation considers the number of “full-time
equivalents” (FTE) that the grantee agrees to enroll. One FTE equals a full-time education
award for which a minimum of 1,700 hours of service has to be completed. The Corporation
sets a limit on the grant support per FTE. That amount has varied over the years due to
program funding levels.

Because EAP awards are based on fixed amounts rather than incurred costs, grantees are not
required to document their expenditures or submit Financial Status Reports. However,
grantees must still comply with the law, regulations and grant provisions.

BGCA is a federally chartered, national organization that was formed to promote the health,
social, educational, vocational, and character development of young people throughout the


                                             2
United States. Through its national headquarters in Atlanta, GA, five regional service
centers, and government relations office in Washington, DC, BGCA:

      Develops program services for young people;
      Assists community leaders to form new clubs;
      Provides training, management consulting, and resource materials to clubs;
      Promotes public and media awareness of club work; and
      Addresses legislative and public policy issues affecting young people.

BGCA is a Federal income tax exempt organization under Section 501(c)(3) of the Internal
Revenue Code.

Created in 1997, the AmeriCorps Education Award Program expands opportunities for young
people to serve their communities and earn financial help for their higher education.
BGCA’s CLUBService initiative program allows members aged 17 and 18 and alumni aged
19 to 24, who are providing a significant amount of volunteer and community service at their
local Clubs, to earn education awards while serving their communities.

BGCA’s national headquarters does not exercise supervision, direction, or control over the
local clubs or members. Each club has an independent board of directors, which has
oversight over local Boys and Girls Clubs, programs and staff.




                                            3
  MANAGEMENT CONSULTANTS &
 CERTIFIED PUBLIC ACCOUNTANTS




                      INDEPENDENT ACCOUNTANTS’ REPORT ON
                        APPLYING AGREED-UPON PROCEDURES

Regis & Associates, PC performed the agreed-upon procedures described below, which were
agreed to by the OIG, solely to assist the OIG in compliance testing of member files for
compliance with the provisions of the Education Award Program (EAP) Grant Number
03EDHGA001 for PYs 2004-2005 and 2006-2007, and Grant Number 06EDHGA001 for PY
2006-2007. This agreed-upon procedures engagement was performed in accordance with
standards established by the American Institute of Certified Public Accountants and
generally accepted government auditing standards. The sufficiency of these procedures is
solely the responsibility of the OIG. Consequently, we make no representation regarding the
sufficiency of the procedures described below, either for the purpose for which this report
has been requested or for any other purpose.

We were not engaged to, and did not perform an examination, the objective of which would
be the expression of an opinion on BGCA management’s assertions. Accordingly, we do not
express such an opinion. Had we performed other procedures, other matters might have
come to our attention that would have been reported to you.

We performed the procedures to verify that:

        Enrolled members were U.S. citizens, nationals, or lawful permanent residents and
         obtained high-school diplomas or equivalency certificates;

        Criminal record checks were conducted for members with substantial recurring
         contact with children or other vulnerable individuals;

        Member contracts were signed by members and included required AmeriCorps
         stipulations;

        Members’ service hours reported in the Corporation’s Web-Based Reporting System
         (WBRS) agreed with hours recorded on members timesheets;

        Members attended orientation;

        Mid-term and end-of-term performance evaluations were performed and documented;

        Hours recorded on members timesheets supported members eligibility to earn
         education awards;

        Eligibility for pro-rated education awards was documented for those members
         released early for compelling personal circumstances;


       1400 Eye Street, NW, Suite 425, Washington, D.C. 20005 Tel 202-296-7101 Fax 202-296-7284
      BGCA certified to the National Service Trust that members were eligible to receive
       education awards;

      Members’ enrollment, exit, and change-of status forms were completed and approved
       in WBRS within 30 days of members starting and ending service or changing status;

      No more than 20 percent of the aggregate of all AmeriCorps members’ service hours
       were spent in training and educational activities; and

      Members’ timesheets, forms, and contracts were in members files and were signed,
       dated, and did not contain discrepancies.

Results

As a result of applying the agreed-upon procedures we questioned $250,559 of education
awards, accrued interest awards on student loans, and administrative fees. The questioned
awards are summarized in Exhibit A, Schedule of Questioned Awards. The compliance
testing results are summarized in Exhibit B, Compliance Testing Results.

Issues identified include the following:

      Member files did not include documentation to support eligibility.

      Inadequate evidence to support whether criminal background checks were performed.

      Members recorded service hours before member contracts were signed.

      Member files were not retained and timesheets contained irregularities.

      BGCA did not complete member enrollment and exit forms and enter them in WBRS
       in a timely manner.

      BGCA did not conduct the required orientation sessions.

      Member contracts did not include required clauses on civil rights and equal
       opportunity.

      BGCA did not perform mid-term and end-of-term performance evaluations.

      BGCA’s monitoring procedures were not fully performed, or results were not always
       documented.




                                             5
                                                                                     EXHIBIT A

                           BOYS AND GIRLS CLUBS OF AMERICA
                             EDUCATION AWARD PROGRAM

 SCHEDULE OF QUESTIONED EDUCATION AWARDS, ACCRUED INTEREST
               AWARD AND ADMINISTRATIVE FEES


    Exception Type                                                           Questioned
                              Program      Number of                         Education
 Enrollment Eligibility:       Year        Members        Member Status       Awards

No High School Diploma       2004-2005         49        Exited with Award    $ 112,310
  or Self-certification      2005-2006         39        Exited with Award    $ 101,588
                             2006-2007          6        Exited with Award    $ 14,175
Total Questioned Education Award Costs         94                             $ 228, 073




                                      Questioned           Questioned          Total
                                 Administrative Fees -   Accrued Interest    Questioned
        Program Year              Ineligible Members         Award            Amount
          2004-2005                     $ 12,070                0             $ 12,070
          2005-2006                     $ 9,012             $ 133             $ 9,145
          2006-2007                     $ 1,271                 0             $ 1,271
Total Questioned Administrative Fees and Accrued Interest Award               $ 22,486




                                                 6
                       BOYS AND GIRLS CLUBS OF AMERICA
                         EDUCATION AWARD PROGRAM

                          COMPLIANCE TESTING RESULTS

Finding 1.     Members’ files did not include documentation to support eligibility.

Our review of 424 member files found that 282 members did not have documentation to
support that they earned a high school diploma or its equivalent with a written declaration
under penalty of law that he or she met the AmeriCorps member eligibility requirements.
BGCA did not provide documentation of education attained, a requirement of its participant
transmittal checklist. We questioned $228,073 of education awards for 94 members who
were certified for an education award. The remaining 188 members were either in active
status or had terminated their service.

BGCA did not comply with its policies and procedures and AmeriCorps regulations to ensure
that applicants met AmeriCorps eligibility requirements before starting service. By not
ensuring that applicants are eligible to participate in the program prior to their enrollment,
participants may receive an education award to which they are not entitled.

Criteria

The BGCA ClubService Implementation Guide states, “[t]o enroll as a ClubService member,
there are several requirements that must be met to confirm eligibility, including:

      School status: high school graduate, currently attending high school, working on
       obtaining a GED or already possessing a GED certificate.”

The BGCA CLUBService Participant Transmittal Checklist includes a list of “Attached
Forms/Documentation”. The required documentation for education status is “copy of class
schedule, latest grade report, high school diploma or G.E.D. certification”.

According to Title 45 C.F.R. § 2522.200(a)(2)(i) and (ii) What are the eligibility
requirements for an AmeriCorps participant?, states that “[a]n AmeriCorps participant must
. . . [h]ave a high school diploma or its equivalent or . . . agree to obtain a high school
diploma or its equivalent prior to using the education award.” Furthermore, paragraph (b) of
the same C.F.R. section states, “Written declaration regarding high school diploma sufficient
for enrollment. For purposes of enrollment, if an individual provides a written declaration
under penalty of law that he or she meets the requirements in paragraph (a) of this section
relating to high school education, a program need not obtain additional documentation of that
fact.”




                                              7
Recommendations

We recommend that the Corporation:

       1a.   Requires BGCA to follow its policies and procedures and AmeriCorps
             regulations to ensure that adequate documentation is maintained to verify
             member eligibility, or that BGCA requires its members to provide a written
             declaration under penalty of law that he or she meets the education
             requirements;

       1b.   Disallows and recovers education awards and administrative fees for members
             determined to be ineligible; and

       1c.   Ensures that for members who are still serving, the documentation of high
             school diplomas or other equivalency certifications are maintained in member
             files before the members are certified for education awards.

Grantee’s Response

BGCA management stated that it relied upon guidance, forms and instructions from the
Corporation for maintaining appropriate documentation to support eligibility of members.

Corporation’s Response

The Corporation concurred with BGCA’s position. The Corporation stated that BGCA
utilized a Corporation-produced enrollment form, although the form did not include the
language “under penalty of law” as stated in the Corporation’s regulations. The Corporation
further stated that it anticipated allowing the related questioned education awards, and that it
will ensure that all required language is included in its forms.

Auditor’s Comment on Grantee’s Response

BGCA was unable to provide documentation evidencing that the members with questioned
education awards had either high school diplomas or equivalency certifications, or had
signed, under penalty of perjury, that they met the education requirements. Our
recommendations remain unchanged.

Auditor’s Comment on the Corporation’s Response

The documentation maintained by BGCA did not comply with the Corporation’s regulations.
In the absence of the penalty statement on the enrollment form, members are not made aware
of the statutory penalties they may incur if they misrepresent their education status and,
therefore, their eligibility to enroll in the AmeriCorps Program.




                                               8
Finding 2.     BGCA did not have documentation to support criminal background
               checks as part of the member screening process.

BGCA could not provide documentation to support criminal background checks completed
as part of the screening process for 280 members.

BGCA officials said that criminal background checks were performed on all members by the
local Clubs, where they were enrolled, and that the records are retained in the members’ files
at the various local Clubs’ Human Resource departments. BGCA officials said that the only
documents available at BGCA’s headquarters relating to criminal background checks, are the
records for the National Sex Offender checks, which were performed on members by
headquarters staff. We asked that the documentation of criminal background checks be sent
for our review and allowed three weeks for its submission. No documentation was provided
for our review and no additional information was provided at the exit conference.

Lack of documentation of required criminal background checks increases the risk that a
member, who should not have been working with children, could have direct contact with
them, resulting in a potential liability for BGCA and the Corporation and potentially
endangering program beneficiaries.

Criteria

The 2005/2006 AmeriCorps Education Award Special Grant Provisions, Section IV.C.
Member Enrollment, state:

   Criminal Background Checks. Programs with members (18 and over) or grant-
   funded employees who, on a recurring basis, have access to children (usually
   defined under state or local law as un-emancipated minors under the age of 18) or
   to individuals considered vulnerable by the program (i.e. the elderly or individuals
   who are either physically or mentally disabled), shall, to the extent permitted by
   state and local law, conduct criminal background checks on these members or
   employees as part of the overall screening process.

   The grantee must ensure, to the extent permitted by state or local law, that it
   maintains background check documentation for members and employees covered
   by this provision in the member or employee’s file or other appropriate file. The
   documentation must demonstrate that, in selecting or placing an individual, the
   grantee or the grantee’s designee (such as site sponsor) reviewed and considered
   the background check’s results.

Recommendation

   2. We recommend that the Corporation requires BGCA to develop and implement
      policies and procedures on National Criminal History Checks as required by the final
      rule published in the Federal Register and effective for members enrolled after



                                              9
       November 23, 2007. This will help to ensure that, in the future, BGCA has
       procedures in place to comply with these requirements.

Grantee’s Response

BGCA management stated that its member organizations perform background checks on
staff and regular volunteers. The member organizations certify to BGCA in an annual report
that background checks are being completed at the local level. Such records are being
maintained at the local level, not at the national level.

Auditor’s Comment

In response to our requests, documentation for background checks was not provided. We
continue to recommend that BGCA implements policies and procedures to comply with the
final rule cited above.


Finding 3.     Members recorded service hours before contracts were signed.

Of the 424 member files that we reviewed, we noted the following:

      In PY 2004-2005, one member was credited with 24.5 service hours before the
       contract start date. We did not question the costs because the member served
       sufficient hours after the contract signed date to earn the education award.

      In PY 2005-2006, one member earned 40 hours before the member’s contract start
       date. We did not question any costs because the member was in active status and had
       not been certified for an education award.

      In PY 2006-2007, one member earned four hours before the member’s contract start
       date. We did not question any costs because the member was in active status and has
       not been certified for an education award.

      In PY 2006-2007, four member contracts were either not signed by the supervisor or
       the AmeriCorps member.

BGCA did not comply with the AmeriCorps provisions. Applicants who record service
hours before contracts are in place may receive benefits, living allowances, and education
awards and interest forbearance for which they are not entitled, as applicants do not become
members until the effective dates of their contracts.

Criteria

The 2005/2006 AmeriCorps Education Award Grant Special Provisions, Section IV.C.
Member Enrollment, states in part:



                                             10
           1. Member Enrollment Procedures.

           a. An individual is enrolled as an AmeriCorps member when all of the
                following have occurred:

                i.     He or she has signed a member contract;
                ii.    The program has verified the individual's eligibility to serve;
                iii.   The individual has begun a term of service; and
                iv.    The program has approved the member enrollment form in WBRS.

           b. Prior to enrolling a member in AmeriCorps, programs make
              commitments to individuals to serve. A commitment is defined as
              signing a member contract with an individual or otherwise entering
              into a legally enforceable commitment as determined by state law.

   Recommendation

       3. We recommend that the Corporation requires BGCA to ensure that supervisors and
          members sign their contracts before recording service hours.

   Grantee’s Response

   BGCA management stated that, in the future, all program materials will no longer reflect an
   enrollment date. Applications will be processed by BGCA staff and a start date will be
   assigned to the member. Once all application documents are received and processed, an
   email will be sent to the member’s supervisor.

   Auditor’s Comment

   The actions proposed and implemented by BGCA should be considered by the Corporation,
   which should also follow up to ensure that the planned actions were implemented. The start
   date of the term of service should not be earlier than the date the member signs the contract.

   Finding 4.          Some member files were not retained and timesheets contained
                       irregularities.

   Our review of 424 member files showed the following exceptions:

                                                                            Program Year
                                                                    2004-       2005-    2006-
                           Exception Type                           2005         2006    2007    Total
Missing member files                                                  0            1       1      2
Timesheet was signed and dated before the end of the month            4            0       0      4
Timesheet was either not signed by the supervisor or not dated        3            2       1      6
Timesheet for June 2005 had hours recorded for June 31, 2005          1            0       0      1
Timesheets for more than one quarter were signed on the same date     1            1       0      2



                                                       11
We did not question any cost relating to the missing member files because the members are
in an active status and have not qualified for education awards.

BGCA management did not ensure compliance with its records retention policy. BGCA’s
inability to retain complete and accurate records increases the risk of participants receiving
education awards for which they are not eligible.

Criteria

The 2005/2006 AmeriCorps Education Award General Grant Provisions, V.B.1. Financial
Management Standards, Time and Attendance Records requires that:

     The grantee must keep time and attendance records on all AmeriCorps
     members in order to document their eligibility for in-service and post-service
     benefits. Time and attendance records must be signed and dated by both the
     member and an individual with oversight responsibilities for the member.

The AmeriCorps Education Award Grant Provisions 2005/2006, Section V.D., Retention of
Records requires grantees to retain all program records for 3 years from the date of the
submission of the applicable final closeout documents. If an audit is started prior to the
expiration of the 3-year period, the records must be retained until the audit findings involving
the records have been resolved and final action taken”

According to BGCA’s ClubService Implementation Guide:

         Record Keeping

     Records of the CLUBService member’s eligibility, financial information,
     service time, evaluation data and any personnel issues should be kept for
     seven years from the member’s date of completion.

Recommendations

We recommend that the Corporation:

   4a.      Requires BGCA to follow its policies and procedures, and to ensure that complete
            and accurate member files are obtained and retained;

   4b.      Requires BGCA to comply with its procedures to ensure that the review and
            approval of hours is recorded on timesheets, that timesheets are signed by the
            member and supervisor and changes to timesheets are initialed by the member and
            supervisor, and that documentation of the review exists.




                                               12
       4c.      Obtains and reviews the two members with missing files to ensure that these
                members are eligible to serve and that they meet the service hour requirements. If
                the members are not eligible, the Corporation should disallow and recover the
                administrative fees paid on these members. If member timesheets do not support
                the certified education award, BGCA should reimburse the Trust for the
                members’ education awards.

   Grantee’s Response

   BGCA management stated that member hours will be reconciled after the 2nd quarter and 4th
   quarter reports have been received to ensure that member hours are recorded accurately.
   Also, submitted member timesheets will be verified against BGCA’s internal database.
   Regarding the missing member files, BGCA pointed out that the chart included in the draft
   report shows that there were no missing files in the 2004-2005 program year, and only one
   such instance in each of the following two grant years.

   Auditor’s Comment

   The grantee’s planned actions address the intent of the recommendations. However, we
   believe BGCA should make additional efforts to locate the two missing files, and that the
   Corporation should consider the actions proposed in Recommendation 4c if those efforts
   prove unsuccessful.


   Finding 5.        BGCA did not complete member enrollment and exit forms and enter
                     them in WBRS in a timely manner.

   Our review of 424 member files showed that BGCA did not have adequate documentation to
   support whether enrollment and exit forms were properly completed and submitted in a
   timely manner for 144 members. Specifically, we noted the following:

            BGCA did not complete 57 members’ enrollment forms and enter them into WBRS
             within 30 days of members starting service.

            BGCA did not complete 87 members’ exit forms and enter them into WBRS within
             30 days of members ending service.

            We also noted the following exceptions:

                                                                   Program
                                                                    Year
                          Exception Type                     2004-        2005-
                                                             2005         2006        Total
Enrollment form signature page was missing                    28           1           29
Exit form signature page was missing                           5           10          15
Certifying Official did not sign the enrollment form           1           0            1
Certifying Official did not sign the exit form                 0           1            1


                                                       13
BGCA officials were not adequately following AmeriCorps provisions, and were unable to
explain why the forms were not entered in WBRS within 30 days of starting and finishing
service. Without timely submission of these forms, the programs and the Corporation cannot
properly monitor the service history of the affected members.

Criteria

The 2005/2006 AmeriCorps Education Award Special Grant Provisions, Section IV.O.3.,
Reporting Requirements, states in part:

    AmeriCorps Member-Related Forms. The grantee is required to submit the following
   documents to the National Service Trust at the Corporation on forms provided by the
   Corporation. Grantees and sub-grantees may use WBRS to submit these forms
   electronically. Programs using WBRS must also maintain hard copies of the forms.

       a. Enrollment Forms. Enrollment forms must be submitted no later than 30 days
          after a member is enrolled.

       b. Change of Status Forms. Member Change of Status Forms must be submitted no
          later than 30 days after a member’s status is changed. By forwarding Member
          Change of Status Forms to the Corporation, State Commissions and Parent
          Organizations signal their approval of the change.

       c. Exit/End-of-Term-of-Service Forms. Member Exit/End-of-Term-of-Service Forms
          must be submitted no later than 30 days after a member exits the program or
          finishes his/her term of service.

Recommendation

 5.        We recommend that the Corporation requires BGCA to follow AmeriCorps
           provisions and develop and implement policies and procedures to ensure that
           member enrollment and exit forms are signed and entered into Corporation systems
           in a timely manner.

Grantee’s Response

BGCA management stated that program staff will work diligently to ensure that all member
files and program materials are entered accurately and in a timely manner.

Auditor’s Comment

BGCA did not include the actions it would take to ensure timely form processing. Our
recommendation is not changed.




                                             14
Finding 6.     BGCA did not conduct the required orientation sessions.

Our review of the 424 member files showed no evidence that BGCA conducted the required
AmeriCorps orientation sessions for members prior to start of service.

Management stated that most of the individuals enrolled in the EAP are alumni of other
BGCA programs and, therefore, already have broad knowledge of the Corporation’s
AmeriCorps program. Management also said that new members were enrolled at various
points throughout the year and it was therefore not feasible to organize orientation sessions
for them.

If a member does not participate in the required orientation, he/she may not be aware of
requirements to which he/she must adhere to successfully complete the EAP Program.

Criteria

The 2005/2006 AmeriCorps Education Award Special Grant Provisions, Section IV.E.3.,
Training, Supervision, and Support, states that:

   The grantee must conduct an orientation for members and comply with any
   pre-service orientation or training required by the Corporation. This
   orientation should be designed to enhance member security and sensitivity to
   the community. Orientation should cover member rights and responsibilities,
   including the Program’s code of conduct, prohibited activities (including those
   specified in the regulations), requirements under the Drug-Free Workplace
   Act (41 U.S.C. 701 et seq.) suspension and termination from service,
   grievance procedures, sexual harassment, other non-discrimination issues, and
   other topics as necessary.

Recommendation

   6. We recommend that the Corporation requires BGCA to follow AmeriCorps
      provisions and ensure that all members receive the required orientation.

Grantee’s Response

BGCA management stated that, in the future, BGCA will ensure that all members are aware
of the duties, rights and responsibilities of CLUBService AmeriCorps members. Also,
BGCA will introduce orientation materials to all Club sites. Orientation materials will be
created during the summer of 2008 seeking input from local organizations via the quarterly
memo which will be mailed in June. Once input is received from the field, documents will
be created and distributed to the local organizations in October 2008. Organizations will be
required to submit a verification form, certified by both the member and the supervisor,
acknowledging that orientation has been completed within 30 days of start date.




                                              15
Auditor’s Comment

The actions proposed and implemented by BGCA should be considered by the Corporation,
which should also follow up to ensure that the planned actions were implemented.


Finding 7.    Member contracts did not include required clauses on civil rights
              and equal opportunity.

The member contract used by BGCA for PYs 2004-2005, 2005-2006, and 2006-2007 did not
include AmeriCorps requirement on Civil Rights and Equal Opportunity. All member files
reviewed lacked these requirements.

BGCA officials indicated that these provisions are incorporated into BGCA’s organization-
wide policies and are communicated to all employees and program sites. By not including
these requirements in the member contracts, members may not be aware of rights under Civil
Rights and Equal Opportunity as it relates to the EAP Program.

Criteria

The 2005/2006 AmeriCorps Education Award General Grant Provisions, Section V.F.3.,
Public Notice of Nondiscrimination, states:

       The grantee must include information on civil rights requirements, complaint
       procedures and the rights of beneficiaries in member contracts, handbooks,
       manuals, pamphlets, and post in prominent locations, as appropriate.

Recommendation

   7. We recommend that the Corporation requires BGCA to revise its member contract to
      include all AmeriCorps requirements stipulated in the grant.

Grantee’s Response

BGCA management stated that its program staff, under the guidance of BGCA’s General
Counsel, has updated the program materials to accurately reflect the requirements. Language
has already been submitted to the Corporation program officer in response to a site
monitoring visit performed in November of 2007. Documentation was submitted to the
Corporation on April 1, 2008. Updated materials reflecting these changes will be dispersed
to all sites by August 31, 2008.

Auditor’s Comment

Actions taken by BGCA to date are responsive to the recommendation. However, the
Corporation should follow up after August 31, 2008, to ensure that the planned distribution
of the updated member contract occurred and is being used by the members.

                                             16
Finding 8.     BGCA did not perform mid-term and end-of-term performance
               evaluations.

Our review of 424 member files showed no evidence that BGCA performed the required
mid-term and end-of-term performance evaluations for members.

Management said that, based on their understanding of the EAP provisions, they were not
required to perform mid-term and end-of-term performance evaluations for members.

Member performance evaluations are necessary to determine whether a member satisfactorily
completed his or her term of service, is eligible for an education award, or eligible to serve a
second term. Properly completed evaluations are necessary to ensure that members are
eligible for additional service terms and that grant objectives have been met.

Criteria

Title 45 C.F.R § 2522.220(d) Participant performance review, states:

   For the purposes of determining a participant's eligibility for a second or
   additional term of service and/or for an AmeriCorps education award, each
   AmeriCorps program will evaluate the performance of a participant mid-term
   and upon completion of a participant's term of service. The end-of-term
   performance evaluation will assess the following: (1) Whether the participant
   has completed the required number of hours described in paragraph (a) of this
   section.

Recommendation

   8. We recommend that the Corporation ensures that BGCA adheres to the grant
      requirements regarding the mid-term and end-of-term evaluations.

Grantee’s Response

BGCA management stated that, if so required by the Corporation, BGCA will require that all
supervisors complete a mid-term and end-of-term evaluation for all enrolled members to be
kept at the local Club site. When a member submits paperwork to exit from the program, a
copy of each evaluation will be required. Performance reviews for second term members are
stipulated in every member contract.

Auditor’s Comment

Corporation regulations require mid-term and end-of-term evaluations. Our recommendation
is not changed.




                                              17
Finding 9.     BGCA monitoring procedures were not fully performed, or results were
               not always documented.

BGCA did not retain complete documentation related to its site monitoring visits. BGCA
utilized the AmeriCorps National Grantee Monitoring Tool for its site monitoring. However,
the completed forms were not retained in the program files. BGCA management also said
that it prepared follow-up letters for the sites regarding the issues identified during the site
visits and the planned remedial action. However, there was no documentation on file to
verify the actual issues identified and discussed with the site management during the visits.

Criteria

The 2005/2006 AmeriCorps Education Award General Grant Provisions, Section V.A.
General Provisions, Responsibilities under Grant Administration, states in part:

   1. Accountability of Grantee. The grantee has full fiscal and programmatic
   responsibility for managing all aspects of the grant and grant-supported activities,
   subject to the oversight of the Corporation. The grantee is accountable to the
   Corporation for its operation of the AmeriCorps Program and the use of the
   Corporation grant funds. The grantee must expend grant funds in a judicious and
   reasonable manner, and it must record accurately the service activities and
   outcomes achieved under the grant.

Title 45 C.F.R. § 2543.51(a), Monitoring by grantees, states:

   Recipients are responsible for managing and monitoring each project, program,
   subaward, function or activity supported by the award. Recipients shall monitor
   subawards to ensure subrecipients have met the audit requirements as delineated in
   Section § 2543.26.

Recommendation

   9. We recommend that the Corporation require BGCA to document the results of
      monitoring procedures and retain evidence of monitoring in its files.

Grantee’s Response

BGCA management stated that changes are being made to its CLUBService Implementation
Guide detailing updated monitoring protocols for all participating organizations. Once site
visits are completed at each organization, a letter will be mailed detailing action steps that
need to be taken to ensure that local organizations are in compliance with the rules and
regulations of both AmeriCorps and BGCA. Organizations will have 30 days to respond
with a written action plan to be completed within 90 days. BGCA program staff will perform
desk reviews at that time to ensure the plan is being implemented at the local organization
and evidence of monitoring will be retained.



                                              18
Auditor’s Comment

The actions proposed by BGCA are responsive to the recommendation. However, the
Corporation should follow up to ensure that the planned actions were implemented.



This report is intended for the information and use of the Office of Inspector General,
Corporation management, BGCA, and the U.S. Congress. However, this report is a matter of
public record and its distribution is not limited.




Regis & Associates, PC
February 29, 2008




                                          19
July 17, 2008


Carol Bates
Assistant Inspector General for Audit
Office of Inspector General, Corporation for National and Community Service
1201 New York Avenue, N.W.
Suite 830
Washington, D.C. 20525


Re:    Agreed-Upon Procedures for Corporation for National and Community Service
       Education Award Program Grants Awarded to Boys & Girls Clubs of America


Dear Ms. Bates:

Thank you for the opportunity to comment on the draft report on the Agreed-Upon Procedures
for Corporation for National and Community Service Education Award Program Grants
Awarded to Boys & Girls Clubs of America. Boys & Girls Clubs of America greatly appreciates
that these comments will be carefully considered and included as an appendix to the final report.
Further, Boys & Girls Clubs of America acknowledges and values the efforts of the Corporation
for National and Community Service (Corporation) in clarifying facts and supporting its position
in this matter.

Boys & Girls Clubs of America (BGCA) strives to achieve the highest standards of compliance
and to maintain its strong reputation for ethics and integrity. We are hopeful that our response to
the draft report along with appropriate supporting documents will provide complete explanation
and justification for removing some of the findings from the final report.

Please allow me to reiterate that BGCA acted with due diligence and good faith in the
management of this grant, which has been instrumental in providing hope and opportunity to
over 5,400 Boys & Girls Club members. As previously discussed, the findings contained several
instances in which BGCA followed procedures at the guidance and direction of its program
officer at the Corporation using the AmeriCorps Education Awards Program (EAP) provisions.
There were also instances where the unique structure of BGCA necessitated working with its
program officer to tailor the program to its structure with the Corporation’s understanding.
Finally, there are some findings where BGCA feels that in fact it did substantially comply with
the grant requirements with only a small percentage of error, which did not have any material
impact on the deliverables of the grant.
BGCA strongly maintains that none of the costs related to the grant are questionable including
the education awards, accrued interest and administrative fees. BGCA respectfully requests that
any reference to questioned costs be removed from the Executive Summary, the Schedule of
Questioned Costs (contained in Exhibit A of the draft report) as well as Compliance Testing
Results (contained in Exhibit B of the draft report) for reasons noted in the following Response
to Findings.

In addition, please note that BGCA did not receive or disburse the questioned education awards
in the amount of $228,073. BGCA received only $22,353 to administer the awards which were
administered in an appropriate manner and all necessary and appropriate documentation in
support of member eligibility was maintained.

                                      Response to Findings


Finding 1.     Members’ files did not include documentation to support eligibility

BGCA strongly believes and respectfully requests that this finding and all questioned costs
related to this finding against BGCA should be removed. BGCA legitimately relied upon
guidance, forms and instructions from the Corporation for maintaining appropriate
documentation to support eligibility of members. For this reason, there should be no finding
against BGCA.

As stated in the report, under Title 45 C.F.R. § 2522.200(a)(2)(i) and (ii), use of written
declaration regarding high school diploma is sufficient. As such, during the grant periods in
question, at the direction of the Corporation, written declaration of education status was obtained
from all participants. The enrollment form utilized was a form provided in 2004 by the
Corporation to BGCA. (See form, attached as Exhibit A). The report notes that the provided
form did not include the phrase “under penalty of law” and BGCA respectfully defers to the
Corporation to address the content of the provided form. The provided form does make the
applicant fully aware that having the equivalent of a high school diploma was a requirement for
participation. In addition, there is no evidence that failure to have that language resulted in the
enrollment of any participants that did not meet that criteria. In all respects, BGCA properly
relied upon the direction and use of forms provided by the Corporation.

In response to the assertion that Boys & Girls Clubs of America did not comply with internal
policies and procedures, at the beginning of this program, Boys & Girls Clubs of America
prepared guidelines and a checklist for the member organizations and outlined the requirements
for participation. In that initial checklist, BGCA indicated that documentation for education
status was required. In 2004, when the Corporation informed BGCA the use of written
declaration was allowable, this updated policy was communicated to Clubs as needed. In
addition, this new policy was articulated during a member audit request from the National
Service Trust, which is part of the U.S. Treasury and financial arm of the Corporation. The Trust
periodically requests member documentation for random members from grantees to verify that
enrollees are valid participants. See Exhibit B, which evidences BGCA’s policy of accepting
signatures of self-certification for school status. Thus, there was a change in BGCA’s internal
procedures. As such, there was not a failure to comply with internal policies and procedures in
this regard.

For these reasons, Boys & Girls Clubs of America continues to respectfully request that this
finding against BGCA be removed.


Finding 2.      BGCA did not have documentation to support criminal background checks
                completed as part of the screening process for 280 members

Assuring the safety of the Boys & Girls Club members is of the utmost importance to BGCA.
As such, it respects and supports the need for criminal background checks for employees and
volunteers. Effective January 2005, BGCA required that all member organizations perform
background checks on staff and regular volunteers. The member organizations certify to BGCA
in an annual report that background checks are being completed at the local level. Those records
(the background checks) would be maintained at the local level, not at the national level.

This finding appears to relate to the recordkeeping by Boys & Girls Clubs of America. The
AmeriCorps guidelines do not specify that the actual background checks be kept at the national
level and to do so may have violated the Fair Credit Reporting Act. The applicable Americorps
provision states as follows:

             IV. L. MEMBER RECORDS AND CONFIDENTIALITY

             1. Record-Keeping. The grantee must maintain records specified in the Financial
                Management Standards (Section B) of the General Provisions below that
                document each member's eligibility to serve pursuant to the member eligibility
                requirements in the definitions section of these provisions. The records must be
                sufficient to establish that the individual was eligible to participate in the
                program and that the member successfully completed the program requirements.

This provision does not require that copies of the background check be maintained at a
centralized location. Therefore, BGCA respectfully submits that maintaining those records at the
local sites would comply with the above provision.

Moving forward, in addition to the information collected on annual reports, BGCA will have
member organizations complete a form for each participant certifying that the background check
has been completed, in accordance with applicable state laws and regulations. This form will be
included as part of the organizations’ enrollment form and verified before they can enter the
program.


Finding 3.      Members recorded service hours before contracts were signed

BGCA does not concur with this finding as the lack of materiality in this finding supports the
process that was in place during these grant periods. BGCA followed its policies and procedures
and of the 424 member files audited there were only seven instances.
Moreover, there is no dispute that the recorded hours were legitimate hours served and that there
was no intent to improperly record any hours. For these reasons, BGCA would continue to
respectfully request that this finding be removed as a significant finding.

In the future, all program materials will no longer reflect an enrollment date. Applications will be
processed by BGCA staff and a start date will be assigned to the member. Once all application
documents are received and processed an email will be sent to member’s supervisor. This should
eliminate any future instances.

Finding 4.     Member files were not retained and timesheets contained irregularities

Again, BGCA does not concur with this finding because the lack of materiality in this finding
supports the process that was in place during these grant periods. With regard to the finding that
member files were not retained, the chart illustrated on page 10 of the report shows that there
were no missing files in 2004-2005 and only one such instance in each of the following two
grant years.

With regard to the finding that the timesheets contained irregularities, over the three year period
there were only 13 minor observations noted in the 424 audited member files.

Moving forward, member hours will be reconciled after the 2nd quarter and 4th quarter reports
have been received to ensure that member hours are recorded accurately. Since WBRS is being
phased out by CNCS we will verify submitted timesheets against our internal database.

Finding 5.     BGCA did not complete member enrollment and exit forms and enter them in
               WBRS in a timely manner

Due to the separation of BGCA and the local organizations, getting the enrollment and exit forms
processed within thirty (30) days was difficult and sometimes challenging. The program officer
was aware of this process concern and assured BGCA that such delay was understood. For these
reasons, BGCA would again request that this concern not be considered a material finding. In
addition, BGCA has worked diligently to reduce the time to enter and exit members since the
start of our program and will continue to do so.

Moving forward, BGCA program staff will work diligently to ensure that all member files and
program materials are entered accurately and in a timely fashion.

Finding 6.     BGCA did not conduct the required orientation sessions

The BGCA CLUBService program is unique in that it requires all AmeriCorps members to be
current members or alumni of a Boys & Girls Club. As such, prior to becoming involved in the
AmeriCorps program, all members are oriented to the organization through their personal
involvement. For this reason, orientation related to the mission and purpose of BGCA was not
necessary.
In the future, BGCA will ensure that all members are aware of the duties, rights and
responsibilities of CLUBService AmeriCorps members and we will introduce orientation
materials to all Club sites. Orientation materials will be created during the summer of 2008
seeking input from local organizations via the quarterly memo which will be mailed in June.
Once input is received from the field, documents will be created and distributed to local
organizations in October 2008. Organizations will be required to submit a verification form
certified by both the member and the supervisor acknowledging that the orientation has been
completed within 30 days of start date.

Finding 7.       Member Contract did not include required clauses on civil rights and equal
                 opportunity

BGCA absolutely promotes adherence to all legal rights and Equal Opportunity at all levels.
BGCA program staff, under the guidance of General Counsel for BGCA has updated the
program materials to accurately reflect the requirements. Language has already been submitted
to CNCS program officer in response to a site monitoring visit performed by the Corporation in
November of 2007. Documentation was submitted April 1, 2008 to the Corporation. Updated
materials reflecting these changes will be dispersed to all sites by August 31, 2008.

Finding 8.       BGCA did not perform mid-term and end-of-term performance evaluations

BGCA properly relied upon direction from the Corporation regarding evaluations. As set forth in
Exhibit C, BGCA was assured that “There is no evaluation requirement for EAPs, however, the
regular National Direct grantees are required to have a mid-term and end of term evaluation.”

As further explanation, both the EAP provisions and the general AmeriCorps provisions have a
section entitled “Training, Supervision and Support” (See §7) but in that section of the EAP
provisions, there is no reference to performance reviews at all. In the general AmeriCorps
provisions, §7(g) does outline performance reviews requirements.

In the entire EAP provisions, there is only one reference to performance reviews, §8(b)(ii),
which reads as follows:

                “ii. Satisfactory Performance Review. To be eligible to serve a second or
                 subsequent term of service, a member must receive a satisfactory performance
                 review for any prior term of service.”

As such, Boys & Girls Clubs of America was operating under the premise and direction of the
Corporation that performance reviews were only required if a member were serving a second
term and this understanding was confirmed by the program officer. Documentation has been
provided to evidence this understanding (See Exhibit C). Furthermore, in accordance with the
EAP provisions communicated to BGCA by the CNS Program manager, BGCA did require
performance evaluations for members serving a second term.

For this reason, BGCA asserts that this finding should not be included in the final findings
report.
Moving forward, if so required by the Corporation, BGCA will require that all supervisors
complete a mid-term and end-of-term evaluation for all enrolled members to be kept at the local
Club site. When a member submits paperwork to exit from the program, a copy of each
evaluation will be required. Performance reviews for second term members are stipulated in
every member contract.

Finding 9.     BGCA monitoring procedures were not fully performed, or results were not
               always documented
Boys & Girls Clubs of America appreciates the chance to improve upon its monitoring
procedures. While site visits have been and will continue to occur, changes are being made to
CLUBService Implementation Guide detailing updated monitoring protocol for all participating
organizations. Once site visits are completed at each organization a letter will be mailed detailing
action steps that need to be taken to ensure that local organizations are in compliance with the
rules and regulations of both AmeriCorps and BGCA. Organizations will have 30 days to
respond with a written action plan to be completed within 90 days. BGCA program staff will
perform desk reviews at that time to ensure the plan is being implemented at the local
organization. Evidence of monitoring will be retained.

                                           Conclusion

Boys & Girls Clubs of America greatly appreciates this opportunity to address these findings.
As stated earlier, it is critical to Boys & Girls Clubs of America to maintain the highest integrity
and transparency so your favorable consideration is valued.

Please allow Boys & Girls Clubs of America to reiterate that with regard to the first finding,
Boys & Girls Clubs of America at the discretion and approval of the Corporation used the
allowed option of a written declaration, and used the tool provided by the Corporation to support
member eligibility. As such, there should not be any questioned costs associated with Boys &
Girls Clubs of America.

Boys & Girls Clubs of America sincerely appreciates the continuing support of the Corporation
and the confidence it has placed in the Boys and Girls Clubs Movement to inspire and enable all
young people in need to realize their full potential as productive, responsible and caring citizens.

Boys & Girls Clubs of America welcomes any additional questions and concerns you might have
related to the responses.

Sincerely,



Roxanne Spillett
President
Boys & Girls Clubs of America

cc:    Ronald Huritz, Audit Manager, R.Huritz@cncsoig.gov and 202-606-9397
       Lateef Abassi, CPA, Regis & Associates, PC
Exhibit A
                                                          7.   Do _ _          .dI~



                                                               o     V.. (pIN'" .,..wy): ___ _ _ _ __
                                                               o     ~
                                                               o     p,.te, 0<11 1<> .. opond
2.     ....... Y"'" dtiun.hlp .!MUI.
       o U.s.. Citiz..                                    ••
                                                               ,_  , ..
                                                               .... you. ftt..., 01 It.. Unillod ILl ..............




:J.    ....
           .....,.,.,""_10_1
       o U.s.."'-'"
       o L..""""~ At I' 11 ~ Ahn oI .... 1.INt..:I

                                                          •. __
                                                               o ,_
                                                               o     ~

                                                                           ""'two_~_,.ou


       0'_
       O~
                                                               SI It 'lojolntlllo_.... '
                                                               o  TOgl!" oQJcotiooo_1d
       o   NoI ....                                            o     To ~ _           pooopIWpiorlOfm •   """""'-"*""""
       o   NoI"igIbIo                                          o TOI>8.,.""' • . . . . . , . , . . _
       o   p,.,." 0<11 to .. opond                             o To gI! • i<>J:IIMm ..."...,.
                                                               o F_ 1"11.. joined
4.     Whlclt 01""'''''_",_;0,* IMotcleKrlbn



      .- _"'_No. .
       ..........:IaI Of _
       _ _ 8.)
                       origI ... ? (_ ..... from .II _
                                                               o
                                                                o
                                                                o
                                                                     ....
                                                               o Tomal<ef_
                                                               o To IMrn obouI. Of _ wlth _1tIInioIcuIlInj
                                                                     P~w_""IO,,*,
                                                                     To ....... llAl.njcb<olt ... $I . 10.... _
                                                                     TODIII_" _ _
       o0 ............
          .......... _ _                                        o    TODlll_in"' _ _
       0      ...                                               o    TOQII_intoWloao.-.I_
       o      While                                            oo    TOQII_          .. pUtoic: . .'-'Y .....
                                                                     OtIIor(pIeaH -'V): _ _ __                    _   _
       B. ElhNcfty
       o  Hispanjo origin                                 10. Haw did yo<> ' -, .bouIlhIl P'Oi'-' ("'-It"1 "'-'
       o               H1_.-.e origin                          Ipp!,.)



      --,
              NO( '"
                                                               o     _obouI.~in         . .....p_/lTIaQUinI_
S.     Which ..... 01 till ' '''_III _   - . ; _ ,.,...           Saw.~~ " .r .. r_1JnIgralhe
                                                               oo $awIt-.I.     pubIir; -w:. _ _
       o SingIIo. _ _                                           o - . , j ... P. ' 1 " ~obouI..
       o ,.."..t i.....; ........... .v_                        o RtctuitIcIby .. ~
       o ......... O<IIMIg ......       ~      __               O ~"""'--
                                                               0 _
       o Wid.-                                                 o eu....wOf_~_
       0 -"-                                                   oo F_IoId_~
       o PreI.. 0<1110 """""'"                                    _"' _ _ onTV
e.                                                             o     Hu'" Iboot ~ on 11"11 .....
       WI"III 1,_ hi;....' ...... 01 .............. _ _        o     Hol<d _.on1l"llIru....vw""" W"'" w.t/
       completed?                                              o_           obouI.   .'rom ..   ~


                                                                  ~--
                                                                  ~~"I"II"'"
                                                               oo 0tII0r _ _ _ _ _ __
                                                                           (pIease~)




Mt,,_ ·.      ~              _____ ______ _ _______

                                                                    ClUBServIce Impr.m.ntllllon GukM (2/1)1)
      '"                                                                              ~&        Gim Clubs 01 Am..-lea
Exhibit B
  Marie Netta
                                                                        -----
  To:       Ela.na Ou'mo>t
  SUbl8<O" FW,,.,...,,be< '8<00"" 10< ""<Ii!



-----{)ng'''''1Me5s.>ge' ••-
From: ~cllo99. Broce [m~;~o: BKELlOGG@cns,'IO"l
Sent: nM5day, June 16. 2005 l ;n P~\
To: Mao.:: Netto
Subject: member records for ~ud it



Or>co ~ga;" 1M ~UlIi1 season is UPOO us, We are ' &qwstirlg a nkMTlller 01 doct>ments Irom
members e<1rolloo In FY 2005. The tIocu"n<Inlll a.e;
                                                                                               f...,   ot $jIeCltiC




     I. Proot ot",I>z"""",,,     nnd age as 1,.100 on the 45 CFR. chaplor XX:V. sectioo 2522,200 (soo a"OCllod Ill..,
         'f l'lllt>t,rty Raqu"mTlIlIlt' page ~--4).
   ,     Prool 1)1 ~'IIh school diploma D'"S eqUlva:ent. or wnnen dactamtoon regarding h>gll sct>oot dlJIIoma (8 1so
         kSied 00 Ina all"""oo CFRj
    3, Member appti~ali "" torm
   ·1_ En,,,linwnl tom> (NOT a pnm·oot hom WBRS)
    'i _ E. i! tonn (NOT a P'"'t-oot hom WBRSj If the mamber exiled wM a compelling re~.oo, a oopy 01 the
         I&tle< 10 suppon ~
   1>. T""",h&&lS (rt 8Wi+c~blel

H any 01 :I1.. se docum&r1ts 1$ not ava,lable lOt' any mason, pklase ind icate th;,; and p'oVlda "" explanatIOn, The
dl!adl ine for this project is Wednl!sday, June 29, 2005. Our fax number is 202 565 2742 II ¥oo
hav& quesllOOs rega,o.n~ t/'us P'OjeCt. pl<ffiSfl leI me know, I know your worltload IS no Ie~~ t'-an '""'" and I
app'eclale the e/fort tha"" aLldit. reqUIre Thank you lor yoor as .. sta""," ,

The _mbtlr recC>l'ds '(!Quested are:
Exhibit C
45 C.F.R. t 2.522.220

                                        For the pu~ of ~tmninillg" participnnfs



     ~~~~~~~~~;~'~;'~'~~~'~'~"~~';jk~'f'j""':[~~:::f:or an
                                                    will evaluate the pcrfonnance of a
                                                                  tennAm  eriCorp'The elld·
                                                                       of service.


(I) Whether !he partidp;ant h:u completed !he ~uimi number of hours de:!.cribed in
pangr:l~ (I) oflhis .5«lion;


(2) Whether !he pMticipanl has wisfactooly oompleled asJi&nmenlS.laSb or projecu:

""
() Whelher the participant has met any mhor !,<,rformallCC: criteria which had been
clearly communicated both orally and in writing at !he beginning of the term of service.




       --Original   " 'ss ;e .-
       From : 8GCA Staff
       Sent: Friday, /'Iord121, 2006 10:28 AM
       To: Regis II< Assodates
       Ct;: ~niQr Olrectot BGO.. Progflm Olrector BGCA, SenIor    Oi~      Grants Mafla9l!O' BGCA
       Subject: EvaulatiDn Not I Requirement for EAP$


       Fcrissues FondG ''''~..ua:iQn,,'''''MI''''''~~OU' ~~
       oec.llalilg flit _               ."',",11$
                          ... fQ.", IIct. til OU' ly9tall"\9Wft- n- you..




       From: CNS PR:lgrom 0tII0er
       Sent: Monday, /'lord! 03, 2008 9:0<4 AM
       To: 8GCA ~ff
       Cc: Program Oirector, 8GCA
       Stlbject: RE: EvaulMion~?


       BCCA SIal1'.nd """,,,",rn DiNOtor BCCA.

         'There i. no evilluoolion NqUiremenl for £'\p" how.v ..... the row,dar National DiI'ft1.
      ..rrant..... ...... nquirtd 10 hne. mid·~.nd end o((enn ovaJu.tion. The MeOnd
      term .. w id be baNd on )'<Our .voduatioD of the .... mbe ..• v.IUII to r<>Ul' Pf'OII'arn-we
      leave it entirety up to th. p...."t orpni ....tionl' di"",..,tioll.

      PI.8M give me a uJi or emeil if you haW! any further q,,"lion' Dr would like 10
      di.w ...
Thank you.
eNS P"""",, OffiCl'r



. . . .,. ' r_ . .
'....,.
  ...... w., .....
                 _ "'"
                        -L'.......' "" ..... ~ .., '., ' ..... "'" "" ~_,......... ", -"'_ .,."' ... """ ...... k"' .... <.>-11
... ~ " "'"'" le .. ....... ..... ' .0   c"" ''''w _ """ ••
                    "-", ~.",~.. " ,,'"ct''''''
                                                 x,
                                                '. ,.-"-",,.""
                                                                       ,.,..,~." ",P'''' ..... , _,~ "'Ii''- ':< "'" ~. ,.,
                                                                  (>0,."......-"'' ,," ,.", ..""",,,,,",, "~"",.     ~
                                                                          <'»""''''
""""'" _00.0
     "'~,"     ~~
              ot         00<'" , ... . - _,•.        ,.",,~r"O
                                                           , ;, ......     ,,~          I "'_
                       '4 ~..,.,. .nJ.-,:,~" ,~~ ......... """"'"" ,,""""' .... "" "" ¢I 'Pi' j~.,
                                                                                                     ,>y~ .....,
                                                                                                          R " " 10-00

............... ''"'''' """'"-""
F'l'O.. , SGCA Staff lmailto:l
Seal: Thunday. Ftbru.,., 211. 2008 120S6 PM
To: CNS Pl vgram om ....
Ce Progr.... Oi"""" •. BOCA
Subject: Evaulation R.q" i..... ent1


CNS P rogram Officer.

W. h.,..,.,. additionlll d arifiCOtb o" to _ k (rom you "Iardi", provi'H>nO abo"t
..,.1lI" . tio....

Our uncMn' Ondin l from the ,"""tiona .. that _          W • ...... t ha .........~
perform ...... evlll".lion to be             ..,,,Iidered
                                          lOr a .........t u-nn of ..,m.. (althou&!> ....,..
il not • I"aranteoo 01. M<:Ond tenn of ...m".~ n.. .... .u.~ in th .. "" " nber """uvt
..,.,.."jintly.

Howtvor, we do not keep .uch in Our fiI • •. 1s thi. i, a                        ~uiromtnt 1


AIIo. il • mid·unn evlllua'ion required at all? n.""k you (0. Lh. official clarific.l;"n.

BCCASlaIJ

BOCAS....rr



BoY* " Oida Clue.. of Amen.:.




Thi .........1 -.sap and all .ttedlmenta I...D.... iu~ .. ith il mlQ """LOin IqaIlJr
pnvilepd .....v or confidential inr.......tinn. If you ..... not Ihe add.- or . u\horWod
......i~ thi. for the add .. _ . you ....y DOt ...... 001>1. di.do..... tab ""y..:tion
t..oed "" Ihi' .. mail. I f you h.~ ......i~~ thia me...,. in ........ , pl ....... <kkte it and
notify Ihe ~n<kr. Th.nk yo\&.

Thi! e-mail mcs,I age nnd ~II attachmenls lrarumi tted Wilh il may coma;n legal ly
privileged andl or confidcmial infonTULliOll_ If you are 1lOI 1he :lddrcss.ee or
                         NATIONAL &
                         COMMUNITY
                         SERVICEt1tt=

To:           C~I ~~tes: AsSi::t~or General for Audit
From:         ~~~erry~t5ir~r                          s Management

Cc:           Jerry BUhiefFinancial
              Frank Trinity, General Counsel
              Kristin McSwain, Director of AmeriCorps
              Sherry Blue, Audit Resolution Coordinator

Date:         July 18, 2008

Subj:         Response to OIG Draft of Agreed-Upon Procedures of Grants Awarded to
              Boys and Girls Clubs of America


Thank you for the opportunity to review the draft Agreed-Upon Procedures report of the
Corporation's grants awarded to Boys and Girls Clubs of America. Weare addressing
only one finding at this time. We will respond to all findings and recommendations in
our management decision when the final audit is issued.

The auditors questioned education awards for 94 members because the member files had
no documentation to support evidence of high school diplomas or other equivalency
certifications. As we noted in our discussions on this finding, we recommend that the
OIG revise its audit procedures. The Corporation's regulations allow programs to accept
self-certification from applicants that they have a high school diploma. There is no
requirement that the member file contain a copy of the diploma. A self-certification may
be obtained on application forms or enrollment forms.

The program did have self certifications as you subsequently recognized, but the
language did not include the phrase "under penalty oflaw" as stated in the Corporation's
regulations. However, the grantee was using a Corporation-produced enrollment form
which did not include the phrase. As a result, we anticipate allowing the questioned
education awards. For the future, the Corporation will assure all required language is
included.

We should also point out that the risk to the Governrnent of ineligible members obtaining
education awards based on their educational status is minimal. The risk is mitigated by
additional program requirements to access the awards beyond the member file
documentation. The AmeriCorps Voucher and Payment Request Form from which the
Trust processes payment requests from members to an educational institution, includes a
certification of eligibility and language that "a knowing and willful falile statement on the
fonn can be punished by fine or imprisonment or both under Section ;1001, o:f Title 18,
USC". Also, members can only access their award by being accepted into a degree
program of an accredited institution of higher education. The award f~,prud q~rect!y t? .
the institution that confinns the qualifications for acceptance which typically include
validation of high school diploma or equivalent.

The Corporation will address the remaining questioned costs and other findings during
audit resolution after the audit is issued as final.
